IN THE SUPREME COURT OF THE UNITED STATES

BAILEY-SNYDER, JAMES
Petitioner

vs.

No: 19-0742

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
December 16, 2019
cc:
MEGHA RAM
RODERICK & SOLANGE
777 6TH STREET, NW
11TH FLOOR
WASHINGTON, DC 20001
DANIEL GREENFIELD
RODERICK & SOLANGE
NORTHWWESTERN PRITZER
SCHOOL OF LAW
MACARTHUR JUSTICE CENTER
375 EAST CHICAGO AVENUE
CHICAGO, IL 60611-3069

